                          .t   4
                                   i
                                       -     .....,-          . +1'-. .
                                                           " - .
                                                                       %   -   .   2'   3
                                                                                        '
                                                                                                        - . ..                   --.
                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR G E N E Y L                       ,- -+
                                             . . . .k, i!2 ~OFFI$E;OF INVESTIGATIONS
                                                                                                                                 ' i
                                                                                                         K , + G c .Y . ~ .
                                                                                                                       I         2:
                                                                                                                                   *   ',


                                                 Y 3 1 , " y -     3   2   *"                            "       '=A   5 5   -
     O                                       CLOSEOUT MEMORANDUM

 Case Number: A-02100047                                                                       Page 1 of 2




     I   We received an allegation that the subject' plagiarized materials into two of his NSF proposals. The
         first of the subject's NSF proposals2contained text and figures that appeared to be copied from two
         NSF proposals submitted earlier by the subject's m e n t ~ r . The
                                                                          ~ second of the subject's NSF
         proposals4contained text that appeared to be coped from a publication5not authored by the mentor.
         In the second instance, the subject referenced the source publication within the apparently copied
         text, much of which was paraphrased, but did not offset or distinguish the copied text in any way
         from his own.

         With respect the first proposal, the subject explained he had permission to use the material he copied

    1    from his mentor. The mentor confirmed this permission in a letter to our office. For the text copied
         into the second NSF proposal, the subject apologized for his oversight but emphasized that he had
         not copied any ideas and that he had included the reference to the source document in the proposal.

         We decided, after careful consideration, to defer this matter for investigation to the subject's
         ~niversit~   Even
                         . ~ though the amount of text copied from the publication was minimal, we were
         concerned that the subject did not fully comprehend the problem of using others' words without
         appropriate attribution.

         Upon receiving our deferral, the University followed its ScholarlyMisconduct Policy and initiated its
    1,   review. The University report concluded that the subject's failure to cite the text extended "beyond
    I    what is customary in the field." It added that the subject "was unaware that scientific misconduct
         could include uncited use of prose.'' The report stated that the subject had no prior training about
    1/   "the definition and forms of scientific misconduct" in the countries he trained before coming to the
         U.S. According to the report, the subject was "intuitively aware" of intellectual theft, however. The




    I
NSF OIG Fonn 2 (1 1/02)
          . . . . . . . . .   :    .. :.   2?     ,
                                                  T
                                                         ,
                                                               - . ." .. * . -
                                                        -., *?---
                                                 .... ..-.       :.
                                                             4.,,-
                                                             s
                                                                        '       . . . . . . . . . . . . . . . . . . . . :.. ...." .I.., ....
                                                                                                               .I I.                                T;   . -, ". -.,".
                                                                                                                                                         ,-.--..       ......
                                                                                                                                                                        . ,
                                                             - - NATIONAL SCIENCE FOUNDATION
                                                            h.
                                      . . ..- ... . *.*..". i.  .. OFFICE OF INSPECTOR GENERAL
                                                            *..........                                                                             . -..... -                   .
                              .*      ~.   -
                                           .~
                                   , .U ;j ;
                                           ib
                                          i f
                                             -;.; & gg.,g;
                                                    .  .<:  7
                                                              . ".

                                                                 8 . ii.O@ICE
                                                                         .     OF IN~ESTIGA.TIONSr:
                                                                                                                        . . . . ..
                                                                                                                      .*&. ~ t . ;      L , . . ,
                                                                                                                                                          .*
                                                                                                                                                             - -.
                                                                                                                                                          ?+ :..*

                                                                                                                                                         5 ',a;
                                                                                                                                                                  1
                                                                                                                                                                  .
                                                                                                                                                                  .




                                                                                                                                                                  *z
                                                                                                                                                                         /


                                                                                                                                                                         :.
                                                                                                                                                                       z,*
                                                                                                                                                                              . .
                                                                                                                                                                              t<* L .
                                                                                                                                                                                        1




                                                                                                                                                                                        *-
                '   .                 .    r.
                                           .
                                                :,*. . . . +; <&&-<
                                                  a
                                                                      . . .                                                    ..     . "   :.       .,:.ggqx7;7
                                                                                                                                                         '    ;.;.                      ;




                                                        & & s ~ o u . r MEMORANDUM                                                                            . a-
                                                                                                                                                              i




Number:                                                                                                                             Page 2 of 2



report stated that the subject had not engaged in either theft of ideas or theft of paragraph structure.
The materials used by the subject that he failed to cite included only introductory material. The
report said that once the subject learned what verbatim plagiarism entailed, he admitted he had done
it. The University found that the subject had committed research misconduct. The University placed
a letter of reprimand in the subject's personnel file where it was to remain for 2 years, after which
time if no additional complaints were received, it would be destroyed. Further, it required for this
same 2-year period that all proposals, manuscripts, and any other writings to be sent outside the
University, were to be submitted to the subject's inentor "for review, comment, and approval prior to
being sent." In addition, the subject voluntarily agreed to attend and complete an ethics course
conducted at the University.

We believe the University's actions related to this matter was sufficient to protect the interests of the
Federal government as well as educate the subject to, reasonably, curtail any hture similar behavior.

This case is closed and no further action will be taken.
